PETITIONER’S APPENDIX

PET. APPX. 001

United States v. Reczko, 818 Fed.Appx. 701 (2020)

818 Fed.Appx. 701
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.

UNITED STATES of
America, Plaintiff-Appellee,
v.
Stanley Dan RECZKO
III, Defendant-Appellant.

[4] the district court's denial of defendant's request to depose
two witnesses in the Philippines was not an abuse of
discretion.
Affirmed.

West Headnotes (8)
[1]

[2]

[1] the district court's denial of defendant's request
for substitute counsel did not violate defendant's Sixth
Amendment right to counsel;

[3] defendant's prior conviction for rape, for engaging
in sexual intercourse with another person by forcible
compulsion, qualified as a prior sex conviction, for the
purpose of sentencing enhancement; and

Criminal Law
particular cases

Validity and sufficiency,

The trial court's failure to proactively reappoint
counsel for defendant, who had waived his
right to counsel, was not erroneous; before
defendant represented himself he acknowledged
the limitations he might face with regard to his
ability to represent himself while incarcerated,
and because defendant's circumstances did not
later vary, defendant's waiver of his right to
counsel remained knowing and intelligent. U.S.
Const. Amend. 6.

Holdings: The Court of Appeals held that:

[2] the district court's denial of defendant's request for
reappointment of counsel two months before trial was
scheduled, which the court treated as a motion for a
continuance, was not an abuse of discretion;

Particular Cases

The district court's denial of defendant's request
for substitute counsel did not violate defendant's
Sixth Amendment right to counsel, during
prosecution for producing child pornography;
the district court conducted multiple inquiries
into the relationship between defendant and his
attorneys, at one hearing defendant was invited
to tell the court any complaint he had, the conflict
between defendant and his attorneys was due
to defendant's refusal to communicate with his
attorneys, and despite the conflict defendant's
attorneys worked in defendant's interest and did
not abandon their representation of him. U.S.
Const. Amend. 6.

No. 15-50247
|
Argued and Submitted February
10, 2020 Pasadena, California
|
FILED Filed June 29, 2020
Synopsis
Background: Defendant was convicted in the United States
District Court for the Central District of California, No.
2:07-cr-01221-GHK-1, George H. King, J., of producing
child pornography and for producing child pornography
while being required to register as a sex offender. Defendant
appealed.

Criminal Law

[3]

Criminal Law

Absence of counsel

The district court's denial of defendant's request
for reappointment of counsel two months before
trial was scheduled, which the court treated
as a motion for a continuance, was not an

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

PET. APPX. 002

1

United States v. Reczko, 818 Fed.Appx. 701 (2020)

abuse of discretion; at the time of defendant's
request, a continuance would have required the
government to renew the process through which
it worked with the Philippine government to
secure the appearances of certain witnesses,
including witnesses defendant requested, which
would have inconvenienced the parties and
those witnesses, defendant had previously been
granted multiple continuances, and defendant
had standby counsel as he prepared for trial. U.S.
Const. Amend. 6.

[4]

Jury

[6]

[7]

Elements of offense and

Criminal Law

Depositions

The district court's denial of defendant's request
to depose two witnesses in the Philippines was
not an abuse of discretion, during prosecution
for producing child pornography; neither of
the proposed deponents was willing to testify,
as defendant himself acknowledged, and, as
a practical matter, the district court had no
authority to compel them to comply with the
deposition request, because they were in the
Philippines. Fed.Rules Cr.Proc.Rule 15(a), 18
U.S.C.A.

Sentencing and Punishment
Nature,
degree, or seriousness of other misconduct
Defendant's prior conviction for rape, for
engaging in sexual intercourse with another
person by forcible compulsion, qualified as
a prior sex conviction, for the purpose of
sentencing enhancement for repeat sex offenses
against children; “forcible compulsion” under
New York law meant “to compel” either by
“physical force” or “a threat which places
a person in fear of immediate death or
physical injury,” and the New York rape
statute matched the federal sexual abuse and
aggravated sexual abuse statutes, which were
specifically mentioned by sentence enhancement
statute as the types of offenses that qualify
as prior sex convictions, as the federal statute
governing sexual abuse prohibited “caus[ing]
another person to engage in a sexual act by
threatening or placing that other person in fear.”

Criminal Law
defenses

The district court did not commit plain
error when it instructed the jury on offense
of sexual exploitation of children based
on employing, using, persuading, inducing,
enticing, or coercing any minor to engage in
any sexually explicit conduct outside of the
United States, its territories or possessions, for
the purpose of producing any visual depiction
of such conduct; instruction tracked the statutory
language of offense, and it was not apparent
that the district court should have additionally
instructed the jury that the phrase “for the
purpose of” in sexual exploitation of children
statute, was the equivalent of a “but-for”
causation requirement. 18 U.S.C.A. § 2251(c).

Form and sufficiency

Defendant's waiver of a jury trial on the
sentencing enhancement for committing repeat
sex offenses against children was valid, even
though the waiver was oral and not in writing;
the court's colloquy with defendant was in-depth
and spanned more than ten pages of transcript.,
and during the colloquy defendant noted that
he had discussed the waiver with his counsel
and repeatedly assured the court that he was
making the waiver knowingly and intelligently.
18 U.S.C.A. §§ 2260A, 3559(e); Fed. R. Crim.
P. 23(a).

[5]

18 U.S.C.A. §§ 2242(1), 3559(e); N.Y. Penal
Law §§ 130.00(8), 130.35(1).

[8]

Sentencing and Punishment
sentence deemed not excessive

Total

Sentencing and Punishment
or consecutive sentences

Cumulative

Defendant's mandatory life sentence for
committing repeated sex offenses against
children did not violate the Eighth
Amendment prohibition against cruel and
unusual punishment; sentence was not grossly
disproportionate to defendant's crimes of
producing child pornography and producing

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

PET. APPX. 003

2

United States v. Reczko, 818 Fed.Appx. 701 (2020)

child pornography while required to register as a
sex offender. U.S. Const. Amend. 8; 18 U.S.C.A.
§ 3559(e).

Attorneys and Law Firms
*702 L. Ashley Aull, Assistant U.S. Attorney, Nancy
Spiegel, DOJ - Office of the U.S. Attorney, Los Angeles, CA,
Vanessa Baehr-Jones, Assistant U.S. Attorney, Office Of the
U.S. Attorney, Oakland, CA, for Plaintiff-Appellee
Ethan Atticus Balogh, Coleman & Balogh LLP, San
Francisco, CA, for Defendant-Appellant
Appeal from the United States District Court for the Central
District of California, George H. King, District Judge,
Presiding, D.C. No. 2:07-cr-01221-GHK-1
Before: BERZON, TALLMAN, and R. NELSON, Circuit
Judges.

*703 MEMORANDUM*
Stanley Reczko appeals his conviction for producing child
pornography under 18 U.S.C. § 2251(c) and for doing so
while being required to register as a sex offender under 18
U.S.C. § 2260A. Reczko received a life sentence for the first
count, because of a recidivism sentencing enhancement, and a
consecutive ten-year sentence for the second count. We affirm
his conviction and his sentence.
[1] 1. The district court did not violate Reczko's Sixth
Amendment right to counsel by denying his requests for
substitute counsel. “To evaluate whether a district court
abused its discretion in denying a motion to substitute
counsel, we consider three factors: (1) the adequacy of
the district court's inquiry; (2) the extent of the conflict
between the defendant and counsel; and (3) the timeliness
of defendant's motion.” United States v. Velazquez, 855 F.3d
1021, 1034 (9th Cir. 2017) (internal quotation marks omitted).
Reczko's motions were timely, but neither of the other two
factors weigh in his favor.
The district court conducted multiple inquiries into the
relationship between Reczko and his attorneys. These were
more than “perfunctory inquiries,” United States v. Adelzo-

Gonzalez, 268 F.3d 772, 778 (9th Cir. 2001); at one hearing,
for example, the district court invited Reczko “to tell [the
court] one by one” of any additional complaints he had, see
id. at 777.
The record reflects extensive conflict between Reczko and
his counsel, but conflicts arising from a defendant's “general
unreasonableness or manufactured discontent” are generally
not incompatible with continued representation. United States
v. Smith, 282 F.3d 758, 763–764 (9th Cir. 2002). Reczko
repeatedly refused to communicate with and, at times
threatened, his lawyers. Despite this conflict, his lawyers
worked in Reczko's interest and did not “virtually abandon[ ]
[their] representation” of him. Adelzo-Gonzalez, 268 F.3d at
779.
[2] 2. The district court did not err when it did not proactively
reappoint counsel for Reczko. In the absence of an “express[ ]
request[ ]” for counsel, “the essential inquiry is whether
circumstances have sufficiently changed since ... the Faretta
inquiry that the defendant can no longer be considered
to have knowingly and intelligently waived the right to
counsel.” United States v. Hantzis, 625 F.3d 575, 581 (9th
Cir. 2010). Here, before he represented himself, Reczko
acknowledged the limitations he might face with regard to his
ability to represent himself while incarcerated. Because his
circumstances did not later vary, it was appropriate for the
district court to conclude that Reczko's waiver of the right to
counsel remained knowing and intelligent.
[3] 3. The district court also did not err by denying Reczko's
explicit request for reappointment of counsel in December
2014, two months before Reczko's trial was scheduled to
and ultimately did begin. The *704 district court construed
Reckzo's request as a request for a continuance, as our caselaw
permits. See United States v. Nguyen, 262 F.3d 998, 1001–
02 (9th Cir. 2001). We weigh five factors when reviewing the
denial of a continuance: “(1) whether the continuance would
inconvenience witnesses, the court, counsel, or the parties; (2)
whether other continuances have been granted; (3) whether
legitimate reasons exist for the delay; (4) whether the delay is
the defendant's fault; and (5) whether a denial would prejudice
the defendant.” United States v. Thompson, 587 F.3d 1165,
1174 (9th Cir. 2009).
Nearly all these factors weigh against Reczko. At the time
of Reczko's request, a continuance would have required the
government to renew the process through which it worked
with the Philippine government to secure the appearances

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

PET. APPX. 004

3

United States v. Reczko, 818 Fed.Appx. 701 (2020)

of certain witnesses (including witnesses Reczko requested),
which would have inconvenienced the parties and those
witnesses. The district court had previously granted Reczko
multiple continuances, including one after Reczko waived his
right to counsel. Much of Reczko's reasoning for requesting
reappointment at that time was illegitimate. The late date
of the request was entirely Reczko's fault, as he could have
requested the reappointment of counsel at any point—in fact,
months before Reczko's request, the government had asked
the district court to evaluate whether Reczko still wished
to continue pro se. Finally, Reczko was prejudiced by the
denial of his request, but he suffered less prejudice than most
defendants who request the reappointment of counsel shortly
before trial. Reczko had standby counsel throughout this time,
and the district court ultimately appointed his standby counsel
to represent him during his trial.
Reczko's “conduct up to that point was clearly dilatory.”
Thompson, 587 F.3d at 1174 (internal quotation marks
omitted). We conclude that the district court did not display
“unreasoning and arbitrary insistence upon expeditiousness in
the face of a justifiable request for delay.” Morris v. Slappy,
461 U.S. 1, 11–12, 103 S.Ct. 1610, 75 L.Ed.2d 610 (1983)
(internal quotation marks omitted).
[4] 4. Reczko's waiver of a jury trial on the 18 U.S.C. §
3559(e) sentencing enhancement and the § 2260A charge
was adequate. Reczko waived jury trial orally, not in writing,
so there is no “presumption that [the waiver] was made
knowingly and intelligently.” United States v. Shorty, 741
F.3d 961, 966 (9th Cir. 2013).
We note that we are troubled by the reliance of district courts
on oral waivers, especially in a case like this. Federal Rule
of Criminal Procedure 23(a) requires that jury waivers be in
writing. Although our caselaw allows some deviation from
this requirement, see Shorty, 741 F.3d at 966, deviations lead
to unnecessary uncertainty as to the validity of the waiver,
as this case illustrates. But, although the district court had
“reason to suspect [that Reczko] may suffer from mental
or emotional instability,” id. (citation and internal quotation
marks omitted), the court's colloquy with Reczko was “indepth,” id., spanning more than ten pages of transcript. During
the colloquy, Reczko noted that he had discussed the waiver
with his counsel and repeatedly assured the court that he was
making the waiver knowingly and intelligently. We conclude
that the waiver was valid.

[5] 5. Reczko's prior conviction for violating New York
Penal Law § 130.35(1) is a “prior sex conviction” under §
3559(e). The New York Penal provision at issue categorically
matches § 2241(a) and § 2242, two of the sections specified
by § 3559(e) as establishing the types of offenses that qualify
as “prior sex convictions,” when both of the federal provisions
are “taken together.” *705 United States v. Bankston, 901
F.3d 1100, 1103 (9th Cir. 2018) (citation omitted).
New York Penal Law § 130.35(1) prohibits the use of
“forcible compulsion” to coerce sexual intercourse. As
relevant here, “forcible compulsion” means “to compel”
either by “physical force” or “a threat ... which places a
person in fear of immediate death or physical injury.” N.Y.
Penal Law § 130.00(8). “[P]hysical injury” under New York
law encompasses more conduct than “serious bodily injury”
under § 2241(a), compare N.Y. Penal Law § 130.00(8) with
18 U.S.C. § 2246(4), but any conduct that is not covered by
§ 2241 is covered by § 2242A, which prohibits “caus[ing]
another person to engage in a sexual act by threatening or
placing that other person in fear,” 18 U.S.C. § 2242(1).
Together, § 2241 and § 2242 cover the full range of threats
proscribed by the New York provision under which Reczko
was previously convicted.
[6] 6. The district court did not commit plain error when it
instructed the jury on the § 2251(c) count. The jury instruction
tracked the statutory language of § 2251(c). See United States
v. Nash, 115 F.3d 1431, 1435–36 (9th Cir. 1997). It was
not apparent that the district court should have additionally
instructed the jury that the phrase “for the purpose of” in §
2251(c), a phrase we have never defined in this particular
statutory context, was the equivalent of a “but-for” causation
requirement.
[7] 7. The district court did not abuse its discretion by
denying Reczko's requests under Rule 15 to depose two
witnesses in the Philippines. “In deciding whether to grant a
Rule 15(a) motion, the district court must consider, among
other factors, whether the deponent would be available at
the proposed location for deposition and would be willing
to testify.” United States v. Olafson, 213 F.3d 435, 442 (9th
Cir. 2000). Here, neither of the proposed deponents was
willing to testify—as Reczko himself acknowledged—and,
as a practical matter, the district court had no authority to
compel them to comply with the deposition request, because
they were in the Philippines.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

PET. APPX. 005

4

United States v. Reczko, 818 Fed.Appx. 701 (2020)

[8] 8. Reczko's mandatory life sentence under § 3559(e)
does not violate the Eighth Amendment. Under the Supreme
Court's current interpretation of the Eighth Amendment, we
cannot say that the sentence was “grossly disproportionate” to
the crime, Solem v. Helm, 463 U.S. 277, 288, 103 S.Ct. 3001,
77 L.Ed.2d 637 (1983), given that the current offense must
be considered alongside his previous criminal history of sex
crime convictions. See Norris v. Morgan, 622 F.3d 1276, 1294
(9th Cir. 2010).

9. Because the district court did not err, there was no
cumulative error.
AFFIRMED
All Citations
818 Fed.Appx. 701

Footnotes

*

This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit Rule 36-3.

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

PET. APPX. 006

5

Case: 15-50247, 10/09/2020, ID: 11853792, DktEntry: 123, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

OCT 9 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

15-50247

D.C. No.
2:07-cr-01221-GHK-1
Central District of California,
Los Angeles

STANLEY DAN RECZKO III,
ORDER
Defendant-Appellant.
Before: BERZON, TALLMAN, and R. NELSON, Circuit Judges.
The panel has unanimously voted to deny appellant’s petition for rehearing.
Judges Berzon and Nelson have voted to deny the petition for rehearing en banc
and Judge Tallman so recommends.
The full court has been advised of the petition for rehearing en banc, and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for rehearing is denied and the petition for rehearing en banc is
rejected.

PET. APPX. 007

